December 24, 2008

WALTER F. O’TORMEY
VICE PRESIDENT, ENGINEERING

ANTHONY M. PAJUNAS
VICE PRESIDENT, NETWORK OPERATIONS

SUBJECT: Audit Report – Radio Frequency Identification Technology: Asset
         Management (Report Number DA-AR-09-002)

This report presents the results of our self-initiated audit to assess the feasibility of radio
frequency identification (RFID) technology for asset management (Project Number
08YG017DA000). Our objective was to determine the opportunities available to adopt
RFID technologies in order to manage assets and lower operational costs. See
Appendix A for additional information about this audit.

RFID Technology Feasible to Manage Assets

The Postal Service has opportunities to adopt RFID technology to improve the
management of mail transport equipment (MTE) inventories and minimize longstanding
pallet losses. At present, the Postal Service does not have an effective inventory
tracking system to curtail pallet loss. The Postal Service lost an estimated 6.37 million
pallets valued at $127.4 million during the 4-year period from fiscal years (FY) 2004
through 2007.

The estimated cost of using RFID technology to control pallet loss is $40 million for the
initial infrastructure investment and at least $3.5 million in operating costs for each
additional year. Consequently, the Postal Service could save an average of $18 million
annually1 and a total of $127 million over a 10-year investment period by implementing
the RFID technology to prevent pallet loss.

RFID has other applications to assist in managing assets. For example, the Postal
Service lost 15 million trays valued at approximately $47 million from FYs 2004 through
2007. Because of the volume involved, controlling tray losses would be a larger
undertaking than that for pallets, and the added annual operating costs for tracking trays
would need to be considered. However, using the RFID infrastructure to control both
pallet and tray losses appears feasible. See Appendix B for our detailed analysis.


1
 Estimated annual savings from reducing pallet losses minus operating and tagging costs. See
Appendix C.
Radio Frequency Identification Technology:                                  DA-AR-09-002
 Asset Management



We recommend the Vice President, Engineering, in cooperation with the Vice President,
Operations:

1. Explore opportunities to employ radio frequency identification (RFID) technology to
   reduce the amount of losses in pallet inventories.
2. Adopt RFID technology to control and improve overall asset management, if the
   Postal Service invests in RFID infrastructure to mitigate pallet losses.

Management’s Comments

Postal Service Engineering stated they are exploring RFID along with Global Positioning
Systems (GPS) technology for pallet losses and will continue to work with Network
Operations to assess the RFID and GPS solutions. Network Operations disagreed that
RFID would provide the solution for pallet leakage outside the Postal Service network.
Engineering stated that prior to selecting the appropriate solution, interested
stakeholders should work together to define data requirements and corresponding
actions, to include enforcement roles and responsibilities. See Appendix E for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
actions responsive to the findings and recommendations. We welcome the opportunity
to work with Engineering, Network Operations, and the U.S. Postal Inspection Service
to identify technology that improves asset management internal controls in the most
cost-effective manner. We believe RFID can provide the solution for pallet leakage and
has valid asset management applications. We will continue to work with Engineering
and Operations management to further explain the potential uses.

The OIG considers recommendation one significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                             2
Radio Frequency Identification Technology:                                   DA-AR-09-002
 Asset Management

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel A. Castillo, Engineering,
or me at (703) 248-2100.


      E-Signed by Darrell E. Benjamin, Jr
      VERIFY authenticity with ApproveIt

Darrell E Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc:       Susan M. Brownell
          Thomas G. Day
          Scott R. Bombaugh
          Cynthia F. Mallonee
          James R. Hardie
          Katherine S. Banks




                                             3
Radio Frequency Identification Technology:                                              DA-AR-09-002
 Asset Management


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Companies frequently use RFID technology to track inventory and manage the supply
chain. The technology is based on a relatively simple concept that relies on radio
waves to transfer data from a pre-programmed tag to a reader. RFID systems have
three primary components:

    •   Tags — active, passive or semi-passive — that store information.
    •   Readers — stationary and handheld — that read/write information from the tags.
    •   A host system with its own hardware, functions, and predefined tasks.

Each tiny RFID chip is connected to an antenna that picks up electromagnetic energy a
reader device beams at it. When the chip picks up the energy, it sends back its unique
identification number to the reader device, allowing remote identification of the item.

Xxxxx xxxxx xxx xxxxxx xx XXXX xxxx.




                                              Redacted




Note: Xxx xxxx xxxxxxx xx xxx xxxx xxxxx xxxxxx xxxxxxxxx. Xxx xxxx xx xxxxx xxxxxxxxxxx xxx xxxx xx
xxx xxxxxxx, xxxxx xxxxxxxxx xxxxxxxxxxx xx x xxxxxx xxxxxx.

By relaying data about location to a remote automated reader, RFID technology has the
potential to improve the effectiveness of inventory control. Using RFID technology,
organizations can track products in the warehouse; on the road; and in planes, trains,
ships, and ports. This results in lower costs, heightened efficiencies, and improved
customer care. Likewise, the Postal Service can track pallets and trays, as pictured
below, to control losses.




         Plastic Pallet                      78P Tray                        74E Tray


                                                  4
Radio Frequency Identification Technology:                                       DA-AR-09-002
 Asset Management



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine the opportunities available for the Postal Service to
adopt RFID technology to manage assets and lower operational costs.

To assess the potential adoption of RFID technology, we reviewed pallet losses, the
cost of implementing RFID technology, and available studies regarding RFID. In
addition, we analyzed the current cost of RFID tags and readers and documented the
asset management applications of RFID. We also conducted a site visit to the Portland,
Oregon District and the plant that is currently using RFID technology in its mail
processing operations to evaluate benefits.

We conducted this performance audit from January through December 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on November 20, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

We did not identify any prior audits or reviews related to the objective of this audit.




                                              5
Radio Frequency Identification Technology:                                                 DA-AR-09-002
 Asset Management


                             APPENDIX B: DETAILED ANALYSIS

Opportunity to Control Pallet Losses

The Postal Service has the opportunity to improve asset management to curtail pallet
loss. As depicted in Table 1, the Postal Service lost an estimated 6.37 million2 pallets
valued at $127.4 million from FYs 2004 through 2007.
                         Table 1 – Estimated Pallet Losses, FYs 2004 - 2007

                                  Total Quantity         Average
                     FY          (Pallet Losses)        Unit Price       Loss Value
                    2004                2,000,000         $20.00         $40,000,000
                    2005                  670,000         $20.00         $13,400,000
                    2006                1,800,000         $20.00         $36,000,000
                    2007                1,900,000         $20.00         $38,000,000
                    Total               6,370,000                       $127,400,000

The Postal Service could deploy RFID technology, purchase new pallets with built-in
tags, and have the Mail Transport Equipment Service Centers (MTESC) tag its existing
pallets to improve inventory management. This would allow the Postal Service to
improve control over its pallet inventory and avoid the annual cost of replacing lost
pallets. Although the Postal Service previously considered the possible benefits of
using RFID technology as part of the Intelligent Mail infrastructure,3 the reduced cost of
the current technology and the potential financial benefits of using the technology to
resolve a specific asset management problem provide added justification.

The concept in more detail is as follows:

    1. Deploy RFID scanners or infrastructure to 11,685 existing sites that accept and
       release pallets. The Postal Service would install scanners at vestibules and
       doors.

    2. Purchase new pallets with built-in RFID tags. Vendors would tag newly
       purchased pallets before delivery to the Postal Service.

    3. Tag existing pallets at MTESCs over a projected 5-year period with the majority
       of the pallet inventory being tagged within the first 2 years of implementation.

    4. Track pallets from departure to return to prevent loss their loss.

2
  Estimated pallet losses for FYs 2004 - 2007. In FY 2008, the Postal Service lost an additional 1.4
million plastic pallets.
3
  The 2003 Intelligent Mail Corporate Plan indicated the Postal Service would explore the use of RFID
tags on unit loads and containers to track mail and manage capital assets. At that time, the Postal
Service elected to pursue barcode technologies for tracking purposes due to cost efficiencies.


                                                    6
Radio Frequency Identification Technology:                                                DA-AR-09-002
 Asset Management



This scenario would establish an inventory process that captures shipments from
MTESCs and plants to mailers at a cost that provides a positive return on investment.
The Postal Service could augment the process to provide mailers with incentives to
participate in the tracking of pallets by establishing read points on their premises that
would validate and update Postal Service data. The Postal Service could also charge
mailers deposits for pallets sent to them or assess mailers usage fees to prevent pallet
hoarding.

The Postal Service would need to establish a suitable information system for collecting
data on the departure and return of tagged pallets and storing this information in a
centralized database. The agency could modify its existing systems4 to contain tag
information for this purpose. Also, the Postal Service should develop procedures to
determine the mailer’s financial responsibility for pallets not returned within a specified
time period.

As shown in Table 2, the initial investment cost of deploying RFID technology for pallets
is estimated at $40 million.

                    Table 2 – Initial Investment to Implement RFID Technology5

                             Investment Items                               Amount
            Installation costs for RFID scanners at 11,023                  $22,046,000
            Post Office drop ship locations – $2,000 per
            scanner

            Installation costs for RFID 8,977 scanners at 662               $17,954,000
            plant and transportation sites – $2,000 per
            scanner

                                      Total                                 $40,000,000

In subsequent years, it would cost at least $3.5 million for operational items, such as
licensing, training, support, servers, and new tags. Additionally, the cost of tagging
existing pallets over 5 years is estimated at $5.2 million. Consequently, the Postal
Service could save an average of $18 million annually and a total of $127 million6 over a
10-year period by implementing RFID technology to minimize pallet losses. We
estimate the internal rate of return would be 63 percent for an RFID pallet project and
the payback period would be less than 3 years. See Appendix C and Appendix D for
our cash flow model and assumptions.

4
  Xxx xxxxxxx, xxx Xxxx Xxxxxxx xxxxx xxxxxx xxx XxxxxxXxxx xxx Xxxxxxxx Xxxxxx xxx Xxxxxxxx
Xxxxxxxx xxxxxxx xx xxxxxxxxxxx XXXX xxx xxxxxxxxxxx.
5
  Actual installation costs will vary depending on the number of plants and scanners, and cost per
scanner.
6
  Net present value of estimated annual savings over 10-year investment period. See Appendix C.


                                                   7
Radio Frequency Identification Technology:                                              DA-AR-09-002
 Asset Management


Other Applications for RFID Technology

Adopting RFID to control pallet loss would create additional opportunities for the Postal
Service to control other MTE losses and improve overall asset management. The
Postal Service could use the same RFID scanners in the plant vestibules, doors and
other read points at no additional investment, but would need to justify annual operating
costs of tracking additional items. Additional RFID applications within the Postal
Service include:

    •   Controlling tray losses — 15 million trays lost during FYs 2004 – 2007 valued at
        over $47,257,229 million.7 We consider these to be assets at risk.

    •   Managing MTE — RFID could provide for advance planning to remove excess or
        cover shortages and reduce time used to manage inventories.

    •   Instituting mailer penalty for extended use — charging mailers for extended use
        of mail transport equipment would keep costs lower for compliant mailers and is
        a common industry practice for rail vans, sea containers, and airline containers.




7
 Losses associated with 78P and 74E trays. The unit cost averaged $4.00 for 78P trays and $2.00 for
74E trays.



                                                  8
            Radio Frequency Identification Technology:                                                    DA-AR-09-002
             Asset Management


                                                              APPENDIX C: CASH FLOW MODEL

      Year                  1              2              3             4              5             6              7              8              9              10
Baseline pallets
purchased in
absence of RFID
tagging                  1,500,000     1,500,000     1,500,000      1,500,000     1,500,000      1,500,000      1,500,000      1,500,000      1,500,000      1,500,000
Pallets
purchased after
implementation
of RFID tagging          1,059,214      237,679          52,128       12,071           3,588         1,926          1,725          1,820          1,969          2,127
Tagging old
pallets                -$3,825,216   -$1,065,012     -$270,283       -$66,467      -$16,243              $0             $0             $0             $0              $0
Pallet loss
savings                 $8,286,112   $25,554,757   $29,923,406    $31,295,864   $32,013,938    $32,595,238    $33,153,907    $33,715,338    $34,285,002    $34,864,076
Implementation
costs                 -$40,000,000
Licensing;
training; support;
servers                -$3,500,000   -$3,559,500   -$3,620,012    -$3,681,552   -$3,744,138    -$3,807,788    -$3,872,521    -$3,938,354    -$4,005,306    -$4,073,396
Net savings           -$39,039,104   $20,930,245   $26,033,112    $27,547,844   $28,253,556    $28,787,450    $29,281,387    $29,776,984    $30,279,696    $30,790,680
Savings
discounted            -$36,315,446   $18,111,624   $20,955,628    $20,627,840   $19,680,259    $18,653,160    $17,649,499    $16,696,021    $15,793,389    $14,939,451

Net Present
Value (NPV) of
savings              $126,791,426
Internal Rate
Return                    62.98%




                                                                                   9
Radio Frequency Identification Technology:                                  DA-AR-09-002
 Asset Management


                        APPENDIX D: CASH FLOW ASSUMPTIONS

The cash flow model simulates the flow of plastic pallets through the MTESC and Postal
Service system. It assumes that any tagged pallet is immune from loss (or losses can
be fully recovered) and any untagged pallet is completely vulnerable to the current loss
rate with no deterrent effect. We based the flow rates on data the Postal Service
provided. We based the pallet universe on pallet purchases made over the past 10
years and Postal Service data on average MTESC stock over the past fiscal year. It
assumes the Postal Service will continue to order 1.5 million pallets per year, every
year, based on their orders from the last 5 years.

Key Cash Flow Items                                    
Total Pallet Universe                                               12,000,000
Estimated Historical Annual Loss Rate                                   12.5%
Pallet Cost                                                             $20.00
Tagged Pallet Cost                                                      $20.50
Installation Cost                                                  $40,000,000
Current Yearly Licensing Cost                                       $3,500,000
Cost of Tagging Old Pallets                                              $0.50
Postal Service Discount Rate for Low Risk                                7.5%
Generative Project
Postal Service Escalation Factor for Miscellaneous                        1.7%
Costs




                                             10
Radio Frequency Identification Technology:                 DA-AR-09-002
 Asset Management


                       APPENDIX E: MANAGEMENT’S COMMENTS




                                             11
Radio Frequency Identification Technology:        DA-AR-09-002
 Asset Management




                                             12
